1

IN THE SUPREME COURT OF THE UNITED STATES
No. 19
Robin E. Jackson
Plaintiff
v.
County of Sacramento et. al.,

CERTIFICATE OF SERVICE

Denesia Bobo, for petitioner Robin E. Jackson hereby certify that on 30th day of
September, 2020.1 caused one copy of the Brief for Robin E. Jackson to be served on the .
following:
Counsel:

Shanan L. Hewitt
Rivera Hewitt Paul LLP
11341 Gold Express Drive, Suite 160
Gold River, California 95670
Shewitt@rhplawvers.com

Jill B. Nathan
Rivera Hewitt Paul LLP
1341 Gold Express Drive, Suite 160
Gold River, California 95670
Attorneys for Respondents

I further certify that all parties required to be served have been served.

Denesia Bobo
2346 South Manor Drive
Sacramento, California 95822

RECEtvcL)
OCT \ 9 2®
fSigafcouBliSs

U

